No. 20A-9

IN THE
Supreme Court of the United States
___________
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
Applicants,
v.
WESLEY IRA PURKEY,
(CAPITAL CASE)
___________
Response in Opposition to Application for a Stay or Vacatur of the
Injunction Issued by the United States District Court
for the District of Columbia
___________

Timothy P. O’Toole
Counsel of Record
Miller & Chevalier Chartered
900 Sixteenth St. NW
Washington, DC 20006
(202) 626-5800
totoole@milchev.com

The Government asks this Court to vacate the preliminary injunction entered
by the District Court of the District of Columbia. The injunction was entered after
the District Court’s considered review of the facts underlying Petitioner’s dementia
and mental illness, which render him incompetent to be executed.
Petitioner and his counsel have been pursuing his claim of incompetence since
November of last year. As the Government repeatedly emphasizes, it was only this
morning, that the District Court addressed the merits of his request and
preliminarily enjoined his execution, having determined that he had made a
substantial threshold showing of incompetence. The Government would have this
Court vacate this injunction because, in its view (1) it was addressed to the wrong
tribunal and reliance on the wrong cause of action and (2) Petitioner has failed to
make the required threshold showing. Intervening on the Government’s behalf would
cut short the process contemplated by federal statute and the Constitution.
There is no merit to these arguments, as the district court correctly found, and
certainly no showing of merit that is sufficiently high to meet the government’s
burden. Indeed, the district court’s injunction relies on settled, relevant precedent
from this Court that the government effectively ignores in its application to vacate.
The government claims this is a “core habeas” case that challenges Mr. Purkey’s
death sentence. But the controlling decision in Ford v. Wainwright, 477 U.S. 399,
425 (1986) says otherwise: “the only question raised is not whether, but when, his
execution may take place.” Ford, 477 U.S. at 425 (emphasis in original) (Powell, J.,
concurring); see also Panetti v. Quarterman, 551 U.S. 930, 945 (2007) (finding that

-1-

Justice Powell’s concurring opinion controls procedure for Ford claims).

The

government also says that Mr. Purkey’s extensive showing of incompetency does not
meet the requisite threshold, but it ignores the many similarities in the record here
to the record in Panetti v. Quarterman, 551 U.S. 930, 949 (2007), which easily met
the threshold. In short, there can be no meaningful dispute there that Mr. Purkey’s
showing of incompetency exceeded the threshold needed to compel a full and fair
process for resolving his claims.
To be sure, the government has some leeway on what that process can look like
at the outset; it could have, for example, set up a process for resolving Ford claims in
a manner or proceeding, and Mr. Purkey would have been bound to honor those
procedures to the extent they were adequate to meet the standard set forth in Panetti.
But it cannot set up no procedures at all, and then complain about how Mr. Purkey
chose to litigate his claims, so long as he acts diligently in doing so. And that is
indisputably what occurred here. Mr. Purkey is the first federal prisoner to raise a
Ford claim, and, in the 35 years since Ford, the Defendants have neglected to create
any process at all.
As part of his effort to diligently pursue protection from unlawful execution,
Petitioner has long sought his own medical records as well as access to medical
professionals. Despite requesting those records from Respondent for the past nine
months, Respondent has yet to disclose them, instead providing them to the lawyers
for the Government. They, in turn, have declined to provide them to counsel, claiming
only that the Eighth Amendment does not require as much.

-2-

Petitioner has also sought access to brain imaging that would corroborate his
mental decline related to Alzheimer’s disease. The Government only this week
provided the imaging that he had been requesting for months. And Mr. Purkey’s
counsel has just learned, for the first time, that the government appears to have had
scientific confirmation in their possession of significant structural abnormalities in
the brain that are consistent with cognitive impairment such as vascular dementia
or other conditions. Access to this testing had been requested by Plaintiff for months,
and arbitrarily denied by Defendants. Defendants reversed course last week, and
permitted the testing at the expense of the defense team. Even though the testing
was paid for and requested by Plaintiff’s counsel and their experts the results were
initially delivered only to the Government, last week. The government provided
reports based on this data late last week, but did not deliver the underlying scans to
Mr. Purkey’s defense expert until yesterday. Although Mr. Purkey’s expert has not
been able to verify the extent of the atrophy and damage to Plaintiff's brain through
the actual scans, the reports themselves make clear that significant abnormalities
exist.
It is against this backdrop, that Defendants seek to vacate the injunction, and
avoid the judicial review and process owed to Mr. Purkey under Ford. The issue before
the Court at this time is not whether the district court’s ruling was correct—though
we firmly believe that it is because it simply follows settled Supreme Court precedent.
Rather, the question is whether, despite Defendants’ obstructionist behavior in the
district court and attempt to rush this serious competency claim through to execution

-3-

without meaningful review, the balance of the equities cuts so strongly in its favor
that this Court should allow the Government to short-circuit a significant and
indisputably timely Constitutional claim altogether by vacating the preliminary
injunction. The answer is clearly no. As a matter of settled law, Plaintiff is entitled
to such process review and, without it, his execution would violate the United States
Constitution. Defendants-Appellants have not come close to carrying the “heavy
burden” necessary to justify a stay.
Background
On November 26, 2019, Mr. Purkey initiated the present action in the D.C.
District Court, including extensive factual allegations and evidentiary support,
challenging the constitutionality of his execution during his period of incompetency
pursuant to Ford. See Complaint, ECF No. 1. Mr. Purkey’s Ford civil complaint did
not challenge his conviction or sentence but, rather, his current competency to be
executed and the failure of Appellants to effectuate any process under Ford. In
addition, Mr. Purkey’s complaint challenged the complete lack of process in federal
Ford determinations. See id. ¶¶ 118–21; Pl.’s Opp’n to MTD at 7–10, ECF No. 20; Pl.’s
Reply in Supp. of Pl.’s Renewed Mot. for a Prelim. Inj. at 2, 16–17, ECF No. 29
(comparing the complete lack of any federal Ford procedure with the many state
procedures in those states that recognize the death penalty). Mr. Purkey first brought
his Ford complaint after the issuance of a warrant scheduling his execution because
a competency to be executed claim is not ripe until the execution is imminent. See

-4-

Panetti v. Quarterman, 551 U.S. 937, 947 (2007) (citing Stewart v. Martinez-Villareal,
523 U.S. 637, 644–45 (1998)).
Mr. Purkey is also a plaintiff in a related case in the D.C. District Court that
challenged the constitutionality of the Government’s proposed lethal injection
protocol. See In re Fed. Bureau of Prisons’ Execution Protocol Cases, No. 1:19-mc00145-TSC (D.D.C. Aug. 20. 2019) (the “Protocol case”). On November 20, 2019, the
D.C. District Court entered a preliminary injunction in the Protocol case, preventing
Mr. Purkey’s December 13, 2019 execution date. However, on December 4, 2019, Mr.
Purkey filed a parallel protective Motion for a Preliminary Injunction (ECF No. 7) in
his Ford case out of an abundance of caution to ensure he would not be executed while
incompetent if the Protocol Case injunction was lifted. On December 17, 2020, after
the initial execution warrant had expired, and after Appellants had filed an
opposition to Mr. Purkey’s Preliminary Injunction Motion (ECF No.10), Mr. Purkey
filed a Motion to Withdraw the protective Motion for Preliminary Injunction, agreeing
with the Government that since his execution was no longer imminent, the
preliminary injunction motion was no longer ripe. See Mot. to Withdraw, ECF No. 11.
On December 31, 2019, the D.C. District Court granted the motion to withdraw and
sua sponte ordered Mr. Purkey to respond to jurisdictional arguments raised in the
Government’s Opposition to Mr. Purkey’s preliminary injunction motion, including
argument relating to the court’s jurisdiction over a civil rights Ford claim brought
outside habeas. The parties completed briefing on January 28, 2020. ECF Nos. 14–
17. Defendants-Appellants then filed a Motion to Dismiss or, in the alternative, to

-5-

Transfer to the Southern District of Indiana, where Mr. Purkey is incarcerated.
Defendants-Appellants’ motion to dismiss or transfer was fully briefed. ECF Nos. 18–
21. Throughout this period and before, Plaintiffs diligently sought Mr. Purkey’s
medical and other records from the Appellants to assist his expert in preparing
reports about Mr. Purkey’s competency. App. A, ECF No. 30-1. The Government
refused throughout this period to provide any information, largely ignoring Mr.
Purkey’s requests.
On April 7, 2020, the preliminary injunction issued in the Protocol Case was
vacated by the D.C. Circuit. See Judgment, FBOP Execution Protocol Cases, No. 195322 (D.C. Cir. Apr. 7, 2020). On June 15, 2020, the next business day after the
issuance of the mandate in connection with that D.C. Circuit litigation, Attorney
General Barr issued another warrant for Mr. Purkey’s execution with only 30 days’
notice, setting his execution date for July 15, 2020. This was done despite Mr.
Purkey’s unresolved and substantiated Ford claim, a lack of promulgated federal
Ford procedures in any form (draft or otherwise), a global pandemic that caused USP
Terre Haute, where Mr. Purkey is located, to prohibit visitations, and documented
COVID-19 cases in the prison, including at least one COVID-19-related death. At the
time the new warrant was issued, neither the Attorney General nor the BOP had
promulgated any procedures to ensure critical visitors could consult with Mr. Purkey
safely without unnecessary risk of exposure to the deadly virus known to be present
inside the prison. R. Woodman Decl. ¶¶ 37–38, ECF No. 23-6.

-6-

Due to the imminence of the newly issued execution warrant and Appellants’
continued delay and refusal to provide Mr. Purkey relevant materials related to his
Ford claim, as described further herein, on June 22, 2020, Mr. Purkey moved the D.C.
District Court for a renewed preliminary injunction of the scheduled execution in
order to ensure he receives (a) a fair hearing on the issue of his competency to be
executed; (b) a determination of his competency vel non to be executed; and (c) the
completion of expedited discovery in advance of a Ford hearing, to which he is entitled
based on his substantial threshold showing of incompetency. Pl.’s Renewed Mot. for
a Prelim. Inj. Barring Execution of Wesley Purkey Pending Final Disposition on the
Merits 1–2, ECF No. 23. On June 23, 2020, Mr. Purkey also filed a motion for
expedited discovery in that matter, seeking information relevant to his Ford claim
that is in the sole possession and control of Appellants and which he has long been
denied. Pl.’s Mot. for Expedited Disc., ECF No. 24.
On July 14, 2020, in an abundance of caution Mr. Purkey filed a Motion to
Preserve Jurisdiction and Stay Execution (“Motion to Preserve”) in an action in the
Southern District of Indiana. Wesley Ira Purkey v. William P. Barr, et al., No. 2:19cv-00517-JMS-DLP (S.D. Ind.) (“Bivens Action”). That court was currently
considering a motion to hold those proceedings in abeyance pending resolution of
claims related to Mr. Purkey’s competency, and Mr. Purkey sought to have that court
enter an order to preserve its jurisdiction to consider the underlying competency
issue, should this matter be transferred to Indiana at the last minute. The
government seeks to characterize that as some form of “forum shopping” but it was

-7-

really another action of diligence and prudence. Although Mr. Purkey was confident
that the district court had jurisdiction in D.C. over his civil rights action (as the
district court ultimately determined that it did), Mr. Purkey noted in his motion to
preserve his intent to file a protective petition for habeas corpus relief under 28 U.S.C.
§ 2241. The need for this sort of protective filing became apparent when, in connection
with the execution of Mr. Lee on July 13, 2020, the proceedings culminated with the
Applicants’ issuance of a new warrant for Mr. Lee’s execution bearing the same date,
despite the serious due process issues raised by the implementation of an execution
warrant with no notice whatsoever. Given that lack of any process and protocols for
addressing these issues, and specifically execution of the mentally incompetent, and
the demonstrated rush to execution without full and fair consideration of his claims,
Mr. Purkey became concerned that the government might take advantage of a last
minute transfer to carry out his execution before he could move for a stay. Because
his claims are meritorious and deserving of judicial review and adjudication on the
merits, and only just became ripe, that motion was filed solely to protect his interest
to have some court hear his Ford claim on the merits before Mr. Purkey was put to
death. While the Indiana court denied the motion almost immediately, it expressed
sympathy with Plaintiff’s counsel’s “desire to avoid the frantic pace of recent related
litigation.” ECF No. 83. Nonetheless, that court concluded that if “if [Plaintiff] is
directed to bring a Ford claim in a § 2241 petition in [the Indiana district court],”
then he must file such a claim in a § 2241 petition in that court, not as part of the
Bivens Action. Id.

-8-

This morning, at 5:09 a.m., the D.C. District Court issued its ruling, enjoining
Mr. Purkey’s execution, scheduled for today. The district court correctly held that
Plaintiffs are likely to prevail on their claims. The court found that, because Mr.
Purkey’s claim is of constitutional dimension and falls outside the core of habeas,
jurisdiction is appropriate under 28 U.S.C. § 1331. Order at 9, ECF No. 36. Even if
the claims were core habeas, the court found that it would still have jurisdiction
because “the question of personal jurisdiction or venue” was not raised by the
Government in their motion to dismiss and was therefore waived. Id. The court also
correctly found that “Plaintiff has made the substantial threshold showing required
by Ford, and in doing so, has demonstrated a likelihood of success on his claim for a
competency hearing.” Id. at 11.
THE RECORD IN FRONT OF THE DISTRICT COURT
The district court issued its ruling based on extensive evidence proffered by
Mr. Purkey detailing his incompetence, his diligence, and the government dilatory
tactics.
I.

MR. PURKEY’S INCOMPETENCY
Mr. Wesley Purkey is a 68-year-old man suffering from progressive dementia,

schizophrenia, complex-Post Traumatic Stress Disorder (“PTSD”), and severe mental
illness including significant delusions and paranoia, rendering him unable to
comprehend the reason for his execution and thus entitled to process on the issue of
his competency to be executed under Ford v. Wainwright, 477 U.S. 399 (1986).
Although no such process has yet been afforded, and despite Appellants’ repeated
roadblocks to gaining additional relevant information in pursuit of Mr. Purkey’s Ford
-9-

claim, the evidence of his incompetency is already extensive. Mr. Purkey’s cognitive
deterioration, memory loss, paranoia, confusion, and delusion are well established in
the record through declarations and reports from counsel, defense team members, and
medical experts, as well as through medical testing and relevant documents.
First, Mr. Purkey’s defense lawyers, investigators, and medical experts who
have evaluated him over decades have described his paranoia and delusions in detail.
See, e.g., Complaint, Exhibit 1 at 10, ECF No. 1-1 (explaining Mr. Purkey’s
longstanding belief that the prison and guards are poisoning him in retaliation for his
legal work); Complaint, Exhibit 13 at 561, ECF No. 1-8 (May 15, 1981, psychiatric
evaluation reporting auditory hallucinations as Mr. Purkey held two conversations at
the same time, “whisper[ing] in an entirely different conversation from what he was
talking aloud.”); Id. at 345, ECF No. 1-6 (May 1998 emergency room record noting Mr.
Purkey was admitted because he “started to act paranoid,” stating that “they” were
watching him at all times and sprayed him with “poisonous mist several times” while
he was sleeping”); Complaint, Exhibit 5 at 40, ECF No. 1-1 at 40 (“Early in my
involvement [as Wes’s mitigation specialist], Wes began exhibiting delusional
thinking”); Complaint, Exhibit 7 at 74, ECF No. 1-1 (“Wes was constantly paranoid
that various prison officials were trying to harm him in retaliation for his ‘jailhouse
lawyering,’” and his “paranoia also increased over time.”); E. Vartkessian Decl., ECF
No. 23-5; R. Woodman Decl., ECF No. 23-6.
Second, testing has confirmed Mr. Purkey’s cognitive decline. In 2003,
neuropsychological testing of Mr. Purkey revealed moderate microsomia on the Smell

- 10 -

Identification Test (SIT)—an early marker of dementia, including Alzheimer’s
Disease. Complaint, Exhibit 3 at 12, ECF No. 1-1. Additionally, a brain scan from
2003 “indicated abnormalities in the area of the brain involved in memory and
typically implicated in Alzheimer’s disease.” Id. at 20. Thirteen years later, in 2016,
neuropsychological testing revealed that Mr. Purkey was suffering from frontal lobe
deficits and progressive dementia consistent with Alzheimer’s disease. Complaint,
Exhibit 9 at 88, ECF No. 1-1. The testing revealed that Mr. Purkey had experienced
significant declines in both memory and executive functioning since the previous
testing in 2003. Id. A follow-up report in 2018 revealed that Mr. Purkey’s condition
had continued to deteriorate since 2016, and the report recommended a further
neurology work-up, including brain imaging, and a reassessment of his neurological
status. Complaint, Exhibit 15 at 120, ECF No. 1-18.
Additional testing administered in August 2019 by Dr. DeRight, a
neuropsychologist, led him to diagnose Mr. Purkey with Alzheimer’s disease, a
progressive neurodegenerative disease that impacts memory, intellectual function,
and behavior. Complaint, Exhibit 3 at 28CF No. 1-1; Complaint, Exhibit 6 at 89, ECF
No. 1-1 (testing, medical and family history “strongly suggest” in 2016 that “Mr.
omplaint, Exhibit 12 at 120, ECF No. 1-2 (describing the reports of cognitive, physical
and psychiatric decline and finding that this “reported pattern of change is very much
consistent with progression of a cortical dementia”); Encyclopedia of Psychology at 71
(4th ed., vol. 1 2010) (describing Alzheimer’s Disease). Dr. DeRight worsening
cognitive symptoms, including paraphasic word efforts, word loss, impaired recall of

- 11 -

information he knew before, and incontinence, was also highly consistent with the
progression of Alzheimer’s disease. See Complaint, Exhibit 3 at 27, ECF No. 1-1;
Encyclopedia of Psychology at 71 (4th ed., vol. 1 2010) (describing Alzheimer’s
Disease). Dr. DeRight opined that collateral information about Mr. Purkey’s
worsening cognitive symptoms, including paraphasic word efforts, word loss,
impaired recall of information he knew before, and incontinence, was also highly
consistent with the progression of Alzheimer’s disease. See Complaint, Exhibit 3 at
27.
Third, expert review of relevant records supports the conclusion that Mr.
Purkey is suffering from cognitive impairment due to a dementing disorder. Dr.
Thomas Hyde, a neurologist, similarly concluded that there is “substantive evidence
of Mr. Purkey’s neurological deterioration over time affecting memory and cognitive
function that is compatible with the diagnosis of a dementing disorder,” based on a
close review of Mr. Purkey’s available records, including medical records, family birth
and death records, and expert reports. Dr. Hyde Decl. ¶ 13, ECF No. 23-4. While
unable to make a definitive diagnosis without the benefit of an in-person visit—
rendered impossible due to the COVID-19 pandemic—or a review of recent medical
records or current diagnostic testing—rendered impossible by Appellants’ failure to
provide requested materials—Dr. Hyde nevertheless concluded that Mr. Purkey’s
“intellectual deficits, paranoia, and delusional beliefs, and the course of his
progressive deterioration are consistent with the diagnosis of dementia.” Id. at 81.

- 12 -

Fourth, Mr. Purkey’s confusion and memory loss has been witnessed over time
by those most familiar with him. Mr. Purkey’s mitigation specialist, Dr. Elizabeth
Vartkessian, PhD, who has had close contact with Mr. Purkey for the last five years,
has witnessed Mr. Purkey’s recent, continual, and rapidly declining cognitive abilities
both in-person before the USP Terre Haute lockdown and even by telephone since the
lockdown began, despite the severe limitations of telephonic consultations. See
generally Vartkessian Decl., ECF No. 23-5. In Dr. Vartkessian’s most recent visits
with Mr. Purkey, the last of which was early March 2020, he struggled to remember
words for simple items and could not recall names of individuals he knew well. Id. at
2-4.
Fifth, the evidence indicates that Mr. Purkey’s cognitive decline and paranoia
render him incapable of understanding the reason for his execution. Dr. Bhushan
Agharkar, a neuropsychiatrist, observed that while Mr. Purkey could recite the
Government’s position that his execution is for the murder of Jennifer Long, this was
merely “parroting,” meaning he can repeat what others say but cannot rationally
understand what it means. Mr. Purkey holds “a fixed belief that he is going to be
executed in retaliation for his legal work, to prevent him from being a hassle for the
government.” Id. This is not a standalone belief but rather serves as a foundation for
an entire delusional system involving conspiracies of retaliation. Mr. Purkey holds an
honest and deeply entrenched belief that the federal Government plans to execute him
not as punishment for the murder of Jennifer Long, but because of his “protracted
jailhouse lawyering.” Complaint, Exhibit 15 at 994 (D.D.C. Nov. 26, 2019), ECF No.

- 13 -

1-18. In Mr. Purkey’s mind, the voluminous grievances and lawsuits he has filed
throughout his incarceration “have had a monumental impact in preventing
correctional officers from depriving prisoners of their constitutional rights.”
Complaint, Exhibit 5 at 41 (D.D.C. Nov. 26, 2019), ECF No. 1-1. Mr. Purkey’s ongoing
paranoia and inability to connect cause and effect is demonstrated through his strong
belief that Attorney General Barr and the BOP are plotting to kill him in retaliation
for his litigation and to prevent him from future filings. See, e.g., Complaint, Exhibit
1 at 12, ECF No. 1-1 (finding that Mr. Purkey insists the Government is “eager[] to be
rid of him and his successful litigation”). Moreover, Mr. Purkey perceives his own
counsel “as part of the conspiracy against him and his efforts to litigate against the
prison”—a belief that prevents him from cooperating with them on matters related to
his execution. Complaint, Exhibit 5 at 54, ECF No. 1-1. Dr. Agharkar concluded to a
reasonable degree of medical certainty that Mr. Purkey “lacked a rational
understanding of the basis for his execution.” Complaint, Exhibit 1 at 12, 13, ECF No.
1-1 (“The lack of rationality from Mr. Purkey’s delusional thoughts and paranoia are
compounded by the deterioration of his brain from his dementia.”).
II.

THE GOVERNMENT’S CONTINUED REFUSAL TO PROVIDE MR.
PURKEY INFORMATION RELEVANT TO HIS COMPETENCY
Notably, the extensive evidence of Mr. Purkey’s incompetency presented to

date does not yet include current records and other evidence that is directly relevant
to his Ford claim, for the simple reason that Appellants have refused to provide any
of this evidence in the nine months since the filing of his complaint, despite
numerous requests. See R. Woodman Decl. at 3, ECF No. 23-6. Records in
- 14 -

Appellants’ sole possession include Mr. Purkey’s updated BOP medical and mental
health records, disciplinary records, and administrative records. Id. Access to Mr.
Purkey himself is necessary for medical experts to conduct in-person assessments
of his declining mental competency as well as the ability to conduct neurological
testing. Complaint, Exhibit 1, ECF No. 1-1 (Dr. Agharkar Report); Dr. DeRight June
14, 2020 Letter, ECF No. 23-2; Dr. Hyde Decl., ECF No. 23-4. Appellants have
repeatedly refused to provide any of this information. R. Woodman Decl. at 3, ECF
No. 23-6; App. A, ECF No. 30-1.
Since August 2019, counsel for Mr. Purkey has made repeated efforts to
obtain this information to further evaluate Mr. Purkey’s competency. See R.
Woodman Decl., ECF No. 23-6; see also App. A, ECF No. 30-1; R. Woodman Suppl.
Decl. ¶ 28. Appellants have ignored or stonewalled these efforts, refusing to provide
the requested information, moving the goalposts on access to expert testing, and
withholding highly probative contemporaneous information about Mr. Purkey’s
mental and physical health. As of today, the day of Mr. Purkey’s execution, counsel
had

still

not

received

requested

information

as

narrowly-tailored

and

straightforward as his most recent medical records. See R. Woodman Suppl. Decl.
¶¶ 5–7.
Mr. Purkey’s updated BOP medical, administrative, and mental health
records, the surveillance video from Mr. Purkey’s cell, and the BOP death watch
protocol are all relevant to Mr. Purkey’s current mental state and functioning. See
App. A, ECF No. 30-1. The BOP first told Mr. Purkey’s counsel that the information

- 15 -

could only be obtained indirectly, such as through the Freedom of Information Act
(“FOIA”) process (even though the request was for Mr. Purkey’s own records and
made by Mr. Purkey’s attorney of record). , ECF No. 23-6. On October 9, 2019, Mr.
Purkey’s counsel submitted expedited FOIA requests for the information to the BOP
when his execution was scheduled for December 13, 2019. R. Woodman Decl., ECF
No. 23-6; Complaint, Exhibit 17. Counsel had also unsuccessfully requested the cell
video footage on September 17, 2019. R. Woodman Decl., ECF No. 23-6. Expedited
FOIA processing was granted but the BOP indicated that processing may
nonetheless take up to six months. Complaint, Exhibit 16 at 1454–55pending
execution date only two months away. R. Woodman Decl., ECF No. 23-6. BOP Legal
Counsel responded on October 16, 2019 that she would follow up to see about a more
expedited time frame. Id. ¶ 13. Purkey’s pending execution date only two months
away. R. Woodman Decl., ECF No. 23-6. BOP Legal Counsel responded on October
16, 2019 that she would follow up to see about a more expedited time frame. Id. at
155 ¶ 13. . BOP Legal Counsel responded on October 16, 2019 that she would follow
up to see about a more expedited time frame. Id. at 155 ¶ 13. Id. at 155 ¶ 13.
The records went unproduced, and counsel for Mr. Purkey again asked for
them on November 11, 2019. Id. at 155, 206–07 (R. Woodman Decl.). This time,
counsel asked that BOP provide the records within ten days, given Mr. Purkey’s
then-pending execution date. Id. BOP Legal Counsel acknowledged that “everyone
involved is cognizant that time is of the essence,” and agreed to forward the
communication to FOIA personnel. Id. Again, no records were produced. Id.

- 16 -

Even after Mr. Purkey’s initial execution warrant expired, Mr. Purkey’s
counsel continued to pursue these critical records and the BOP continued to refuse
to provide them. On February 3, 2020, Mr. Purkey’s counsel submitted updated and
renewed FOIA requests seeking: (1) BOP policies and procedures pertaining to BOP
surveillance of Mr. Purkey as well as copies of video surveillance tapes of his cell,
and (2) Mr. Purkey’s medical, mental health, and administrative BOP file (including
disciplinary records). See id. at 161, 301–12 (R. Woodman Decl.). A supervisory
attorney at the BOP acknowledged receipt of the requests and confirmed they would
be forwarded to the FOIA processor who would reach out if they needed any more
information to fulfill them. See id. at 161, 323–25 (R. Woodman Decl.). Mr. Purkey’s
counsel received no requests for further information to facilitate the FOIA request,
and, again no records were produced. R. Woodman Suppl. Decl. ¶ 7.
Remarkably, Appellants thereafter disputed that Mr. Purkey renewed his
FOIA requests at all, and then represented that the BOP did not have any record of
the updated or renewed FOIA request. See R. Woodman Decl., ECF No. 23-6 Mr.
Purkey’s counsel again pressed the complete failure to provide Mr. Purkey’s records
or grant access for testing in filings in the Ford matter. Purkey’s Opp’n to MTD
(D.D.C. Mar. 16, 2020), ECF No. 20.1 On June 15, 2020, shortly before receiving

1 Counsel specifically argued that Defendants should grant access to the necessary
materials (even while an injunction was in place in the Protocols case) because waiting for a
short warrant period would impose an “‘unrealistic time-frame’ to allow counsel to obtain
the information it needs to prepare for a competency hearing, this court to conduct it, and
an appellate court to review it.” Memorandum in Support of Plaintiff’s Opposition to
Defendants Motion to Dismiss, ECF No. 20.

- 17 -

notice of the new execution warrant, and on June 25, 2020, Mr. Purkey’s counsel
again followed up with BOP Legal Counsel about the 2020 FOIA requests. See R.
Woodman Decl. ¶ 32, ECF No. 23-6; R. Woodman Suppl. Decl., ECF No. 30-2. On
June 26, 2020, BOP Legal Counsel claimed that she was “unaware of any
outstanding requests for medical and psychological records” and that “the two
quickest ways” to obtain “medical and psych” files were to ask Mr. Purkey to request
them or “through the discovery process.” R. Woodman Suppl. Decl., ECF No. 30-2.
On June 23, 2020, Mr. Purkey filed a motion for expedited discovery of the
materials he had long sought in relation to his Ford claim. In response, on June 29,
2020, Appellants in the Ford matter continued to refuse to provide the relevant
records and failed to address why, after eight months, Mr. Purkey had not received
the materials through the “expedited” FOIA process. See Defendants’ Opp. to
Plaintiff’s Mot. for Expedited Discovery, ECF No. 27; see also Defendants’
Opposition to Plaintiff’s Motion for Renewed Preliminary Inj., ECF No. 26.
On July 4, 2020, a federal holiday, BOP Legal Counsel inexplicably purported
to change position, stating that “I have provided Mr. Purkey’s entire medical and
psychological files to the AUSAs [Assistant United States Attorneys] involved in his
case (copied here). They have agreed to produce the same to you under the rules for
discovery.” R. Woodman Suppl. Decl. ¶¶ 5,7. But the referenced records do not
include all requested information, such as video records and administrative file and
disciplinary records. R. Woodman Suppl. Decl. ¶ 7. And, on the day of Mr. Purkey’s

- 18 -

scheduled execution, these records, allegedly sitting in the hands of defense counsel
in the Ford matter, still had not been produced. See id.
The reports from Drs. DeRight and Agharkar and declaration from Dr. Hyde
illustrate that important questions of fact regarding Mr. Purkey’s competency
cannot be fully assessed without the withheld medical and BOP records. For
example, Mr. Purkey’s legal team reports that Mr. Purkey appears to be incontinent.
Complaint, Exhibit 3 at 25, ECF No. 1-1. This is an important marker of Alzheimer’s
Disease. Id. at 28. The medical records may shed light on when Mr. Purkey’s
incontinence began and the extent of his loss of this biological function. Dr.
Agharkar noted that Mr. Purkey has less movement on the right side of his face, as
if he had suffered a stroke. Complaint, Exhibit 1 at 11, ECF No. 1-1. Without the
medical records, counsel lacks information about whether Mr. Purkey has had a
stroke that could indicate further cause for his cognitive decline. These questions
are merely illustrative, not exhaustive, of the information withheld. The need for
the withheld medical records is especially pressing because neither Mr. Purkey’s
counsel nor his expert witnesses have been able to visit Mr. Purkey in-person since
March 2020. Continuous observation is imperative to identify the declining
functions and cognitive awareness that are hallmarks of persons with dementia.
This is one reason the surveillance footage from Mr. Purkey’s cell is so critical in
addition to his medical and administrative records. Range video surveillance, which
shows Mr. Purkey in his typical prison setting, will provide for observation of Mr.

- 19 -

Purkey’s condition in a way that the somewhat artificial setting of a visitation
cannot.
Appellants have also prevented Mr. Purkey’s access to highly probative
testing ordered by his experts. On September 26, 2019, Dr. Agharkar ordered brain
image testing based on Mr. Purkey’s history of cognitive deficits and the need to rule
out an intracranial process. See ECF No. 23-6. On June 15, 2020, Mr. Purkey’s
counsel requested that Dr. DeRight be allowed to visit and evaluate Mr. Purkey in
person. Dr. DeRight had last conducted an in-person examination of Mr. Purkey in
August of 2019. See ECF No. 23-2. Standard best medical practices require repeated
neuropsychological examinations, including up-to-date neuroimaging and blood
laboratory tests, to assess Mr. Purkey’s current abilities and the progression of his
dementia. Id. Dr. Hyde also made clear that additional examination and testing is
necessary but has been unable to safely examine Mr. Purkey in person due to the
prison closure and the pandemic. See id. at 74 ¶ 8 (stating that “a complete
neurological assessment includes a face-to-face interview and physical neurological
examination of Mr. Purkey, and follow-up with relevant diagnostic testing,” to
include an MRI, EEG, a variety of blood tests, spinal tap, and PET scans). For
months, the BOP refused to permit such testing, claiming a lack of ability or
authority to allow it, and stating, among other things, that the testing required a
court order
Petitioner has also sought access to brain imaging that would corroborate his
mental decline related to Alzheimer’s disease. The Government only this week

- 20 -

provided the imaging that he had been requesting for months. And Mr. Purkey’s
counsel has just learned, for the first time, that the government appears to have had
scientific confirmation in their possession of significant structural abnormalities in
the brain that are consistent with cognitive impairment such as vascular dementia
or other conditions. Access to this testing had been requested by Plaintiff for months,
and arbitrarily denied by Appellants. Appellants reversed course last week, and
permitted the testing at the expense of the defense team. Even though the testing
was paid for and requested by Plaintiff’s counsel and their experts the results were
initially delivered only to the Government, last week. The government provided
reports based on this data late last week, but did not deliver the underlying scans
to Mr. Purkey’s defense expert until yesterday. Although Petioner’s expert has not
been able to verify the extent of the atrophy and damage to Plaintiff's brain through
the actual scans, the reports themselves make clear that significant abnormalities
exists.
Appellants’ months-long failure to provide relevant information has been
exacerbated by the COVID-19 pandemic. Cases continue to rise in states across the
country, including in the Midwest. Id. at 53 ¶ 8 (J. Goldenson Decl.). Prisons and
other detention facilities pose heightened risks for COVID-19 exposure and
transmission. Id. at 56 ¶ 17. The lack of adequate ventilation, inability of all
prisoners and staff to practice social distancing, inadequate hand washing, and
insufficient cleaning practices all contribute to the increased risk for the rapid spread
of COVD-19 in prisons. Id. at 56–59. In recognition of the threat of COVID-19, the

- 21 -

BOP suspended all social and legal visits across the country.2 All visitation at USP
Terre Haute has been suspended since March 13, 2020. At the time of this filing, the
BOP website still states that no visitors are allowed at USP Terre Haute and that
all social and legal visits for all BOP facilities remain suspended. Id. at 61 ¶ 39. USP
Terre Haute has reported cases of COVID-19 among its prisoner population, and,
notably, it has recently been reported that a BOP staff member coordinating the
upcoming executions tested positive for COVID-19. R. Woodman Suppl. Decl. ¶ 8.
With scant testing, it is impossible to know the full scale of the infection. Id. ¶ 37.
Mr. Purkey’s counsel immediately contacted BOP Legal Counsel to discuss
USP Terre Haute’s visitation policy after receiving notice of Mr. Purkey’s new
execution warrant. Id. at 166, 363–64 (R. Woodman Decl.). BOP Legal Counsel
expressed willingness for legal visits to resume for prisoners with scheduled
executions but could not provide any official protocols regarding visitation or safety
precautions. See id. at. 166, 365–66. Although BOP Legal Counsel stated that she
would provide Mr. Purkey’s counsel with a written policy on June 17, 2020, Mr.
Purkey’s counsel has yet to receive any such official documentation regarding legal
or expert visits. Id. at 166, 367–69. The BOP has not explained how visitation would
be safe for the four inmates with execution warrants and their visitors when it
remains suspended for the over 1200 other prisoners at USP Terre Haute and their
visitors. The BOP’s cursory and unplanned approach to resuming legal visits is

2 BOP Implementing Modified Operations, Fed. Bureau of Prisons,
https://www.bop.gov/coronavirus/covid19_status.jsp (last visited July 12, 2020).

- 22 -

entirely insufficient, particularly given the close quarters and limited ventilation
and air flow within death row visitation rooms. J. Goldenson Decl. ECF No. 23-3.
Nor does the BOP’s approach provide adequate access to Mr. Purkey to make
meaningful assessments. Mr. Purkey’s counsel and medical experts have been
unable to visit Mr. Purkey for months. See (E. Vartkessian Suppl. Decl., ECF No.
23-5; R. Woodman Decl., ECF No. 23-6; R. Woodman Suppl. Decl., ECF No. 30-2.
These in-person visits by individuals who have long known Mr. Purkey and have
witnessed his mental decline over the years are critical to understanding the
trajectory of his progressive dementia and his present mental state. See Letter from
Jonathan DeRight, PhD, ABPP-CN, Woodbridge Psychological Associate, PC, to
Rebecca E. Woodman, Esq., Attorney at Law, L.C. (June 14, 2020), ECF No. 23-2;
Dr. Hyde Decl. ¶¶ 11–12, 14, ECF No. 23-4; E. Vartkessian Decl. ¶¶ 4, 11, 22–25,
ECF No. 23-5. All three of Mr. Purkey’s expert witnesses have made clear how vital
it is for Mr. Purkey’s legal team to have in-person visits, testing, imaging, and
examinations to obtain an accurate assessment of the progression of his dementia.
See Complaint, Exhibit 1, ECF No. 1-1 (Dr. Agharkar Report); Dr. Hyde Decl. ¶¶ 8–
9, 11–12, 15–17, ECF No. 23-4; DeRight June 14, 2020 Letter, ECF No. 23-2.
More fundamentally, the decision to fast-track Mr. Purkey’s execution during
the pandemic and the BOP’s lack of adequate preparation or procedures to facilitate
safe visitations, let alone executions, given the USP Terre Haute COVID-19
outbreak, creates an impossible situation for all involved in the days leading up to
Mr. Purkey’s execution. In order to advocate for their client’s constitutional rights

- 23 -

and uphold the core values of the U.S. Constitution, Mr. Purkey’s counsel and
experts must risk their own lives and the lives of their family members or medically
vulnerable persons to whom they provide care. Mr. Purkey must face the prospect of
dying without his legal and spiritual advisors, and without familial support by his
side—either because they will not be permitted to visit him, or because they must
risk their lives to do so. Even the family members of the victim of Mr. Purkey’s crime
must make this difficult decision, as it is their right to attend the execution.
Appellants’ decision to schedule Mr. Purkey’s execution with only one month’s
notice, after the months-long refusal to provide relevant materials and access to Mr.
Purkey, and in the midst of a global pandemic that creates new difficulties and
dangers associated with in-person visits, deprives him of his constitutional rights
under the Fifth and Eighth Amendments.
ARGUMENT
The standard of review on an application to vacate a stay of execution is highly
deferential. A stay of execution is an equitable remedy that lies within a court’s discretion.
See Kemp v. Smith, 463 U.S. 1321 (1983) (Powell, J., in chambers). “Only when the lower
courts have clearly abused their discretion in granting a stay should [this Court] take the
extraordinary step of overturning such a decision.” Dugger v. Johnson, 485 U.S. 945, 947
(1988) (O’Connor, J., joined by Rehnquist, C.J., dissenting); see also Doe v. Gonzales, 546
U.S. 1301, 1307, 1309 (2005) (Ginsburg, J., in chambers) (denying application to vacate
stay entered by court of appeals “[a]lthough there is a question as to the likelihood of ...
success on the merits” because “the applicants have not shown cause so extraordinary

- 24 -

as to justify this Court’s intervention in advance of the expeditious determination of the
merits toward which the Second Circuit is swiftly proceeding” (internal quotation marks
omitted)).
A stay pending appeal is available “only under extraordinary circumstances,”
and the “district court’s conclusion that a stay is unwarranted is entitled to
considerable deference.” Ruckelshaus v. Monsanto Co., 463 U.S. 1315, 1316 (1983)
(Blackmun, J., in chambers). The Government has not carried its “heavy burden” to
justify such relief here, id., as (1) it has not “made a strong showing that [it] is likely
to succeed” in challenging the injunction on appeal; (2) it will not “be irreparably
injured absent a stay”; (3) a stay would substantially and irreparably injure
Plaintiffs; and (4) a stay is not in the public interest. Nken v. Holder, 556 U.S. 418,
434 (2009).

Where, as here, the court below issued a stay based on its careful review of the
extensive evidence offered by Mr. Purkey and the Appellants have engaged in dilatory
tactics and obstruction, this Court should not vacate the decision below.

I.

APPELLANTS ARE NOT LIKELY TO SUCCEED ON THE MERITS
The district court correctly held that Mr. Purkey is likely to prevail on his

claims. The court found that, because Mr. Purkey’s claim is of constitutional
dimension and falls outside the core of habeas, jurisdiction is appropriate under 28
U.S.C. § 1331. Order at 9, ECF No. 36. Even if the claims were core habeas, the court
found that it would still have jurisdiction because “the question of personal
jurisdiction or venue” was not raised by the Government in their motion to dismiss
- 25 -

and was therefore waived. Id. The court also correctly found that “Plaintiff has made
the substantial threshold showing required by Ford, and in doing so, has
demonstrated a likelihood of success on his claim for a competency hearing.” Id. at
11.

A.

The District Court Properly Found That It Has Jurisdiction to
Hear Mr. Purkey’s Claims

The district court correctly found that claims pursuant to Ford are not
traditional “core habeas” claims required to be brought under 28 U.S.C. § 2241. Order
at 7, ECF No. 36. In a capital case, the test for whether a claim is within the bounds
of “core habeas” is whether it would permanently prevent his execution. Clearly
established Supreme Court precedent shows that this case is outside that core
because “[u]nder Ford, when a plaintiff claims incompetence, ‘the only question
raised is not whether, but when, his execution may take place.’ This temporal
question is distinct from ‘the antecedent question whether petitioner should be
executed at all.’” Id. (citing Ford, 477 U.S. at 425 (internal citations omitted)); see also
Stanley v. Davis, No. 07-cv-4727, 2015 WL 435077, at *4 n.4, *5 (N.D. Cal. Feb. 2,
2015) (it is “difficult to discern a meaningful difference between a Ford challenge and
a methods challenge. . . .[which] may be brought under section 1983.”); Ward v.
Hutchinson, 558 S.W.3d 856 (Ark. 2018) (a state prisoner sought declaratory and
injunctive relief in a civil rights action under 42 U.S.C. § 1983 challenging, in part,
his competency to be executed); Hubbard v. Campbell, 379 F.3d 1245, 1247–48 (11th
Cir. 2004) (Barkett, J., dissenting) (a civil rights action is an appropriate vehicle to
raise a Ford claim because it does not challenge the fact or validity of the sentence,
- 26 -

only the constitutionality of the execution at a specific temporal point of
incompetency, an issue not reached by the majority).
A “core habeas” is one in which “a judgment in favor of the plaintiff would
necessarily imply the invalidity of his conviction or sentence.” Heck v. Humphrey, 512
U.S. 477 (1994). In such cases, a civil rights action is not an available remedy. “But if
. . . the plaintiff's action, even if successful, will not demonstrate the invalidity of [his
conviction or sentence], the [§ 1983] action should be allowed to proceed . . . .” Skinner
v. Switzer, 131 S. Ct. 1289, 1298 (2011) (quoting Heck v. Humphrey, 512 U.S. at 487);
see also Savory v. Lyons, 469 F.3d 667, 672 (7th Cir. Nov. 29, 2006) (action to obtain
DNA appropriate pursuant to § 1983 because “such access would not imply the
invalidity of his conviction” even if it may eventually lead to such a claim)).
It is clear that where a prisoner seeks injunctive relief that “would not
necessarily bar the inmate’s execution,” the challenge is not limited to habeas because
the challenge does not seek to establish “unlawfulness [that] would render a
conviction or sentence invalid.” Hill v. McDonough, 547 U.S. 573, 574 (2006) (citations
omitted); Nelson v. Campbell, 541 U.S. 637, 643–44 (2004) (citations omitted)
(allowing a challenge to the method of execution outside of habeas because it did “not
directly call into question the ‘fact’ or ‘validity’ of the sentence itself”). This is true
even if the challenge would “frustrate an execution as a practical matter.” Hill, 547
U.S. at 574 (explicitly rejecting an amici argument that any “challenge that would
frustrate an execution as a practical matter must proceed in habeas.”).

- 27 -

As Mr. Purkey emphasized in his renewed motion for preliminary injunction
(ECF No. 23) and the district court correctly observed in granting it, Ford “noted that
incompetence may be temporary, and that a person may be returned to competency
in order to carry out his sentence.” Ford, 477 U.S. at 425 n.5 (Powell, J., concurring).
It is a well-settled principle that competency is not inherently static and may be
restored—a concept that Appellants continue to ignore and refuse to disclaim even
though the Government is a vocal advocate of that principle. See Indiana v. Edwards,
554 U.S. 164, 175 (2008) (“[Competency] varies in degree. [Competency] can vary over
time. [Competency] interferes with an individual’s functioning at different times in
different ways.”); Davis v. Kelley, 854 F.3d 967, 971 (8th Cir. 2017) (“competency can
be lost or regained over time” in the context of Ford); United States v. Dahl, 807 F.3d
900, 904 (8th Cir. 2015) (“[C]ompetency is not static and may change over even a
short period of time[.]”) (internal quotation marks omitted); United States v. Grape,
549 F.3d 591, 597–98 (3d Cir. 2008) (the Government could restore competency by
medicating currently incompetent defendant who became mentally ill in prison);
Singleton v. Norris, 319 F.3d 1018, 1026 (8th Cir. 2003) (upholding the state’s forced
medication of a prisoner to restore him to competency); Commonwealth v. Sam, 952
A.2d 565, 582 (Pa. 2008) (allowing involuntary medical intervention to restore an
inmate to competency); Pl.’s Reply to Defs.’ Resp. to Mr. Purkey’s Br. Filed Pursuant
to this Court’s Order of Dec. 31, 2019 at 3 n.1, ECF No. 17 (“Nearly all death penalty
jurisdictions that have implemented procedures that govern Ford claims include
provisions for restoring competency.”).

- 28 -

Notably, as the district court found, Appellants do not contest the court’s
jurisdiction as to Mr. Purkey’s process challenge. See Order at 8, ECF No. 36.
“Plaintiff’s second claim challenges the manner of his execution by arguing that due
process entitles him to a competency hearing before he can be executed. Compl. ¶ 119,
ECF No. 1. Success on this claim would not challenge his death sentence but would
only provide him a competency hearing. Again, Appellants appear to concede that
there is an acceptable alternative—his execution can occur after he is found
competent. Pl.’s Opp’n to MTD at 15–16, ECF No. 20.
Finally, the district court determined that, even if it could be said that Mr.
Purkey’s claims were “core habeas”, the court would still have jurisdiction because
the requirement that habeas petitioners file in the district of confinement “‘is a
question of personal jurisdiction or venue not a question of subject matter
jurisdiction.’” Order at 9, ECF No. 36 (citing Rumsfeld v. Padilla, 542 U.S. 426, 447,
451 (Kennedy, J., concurring)). Because Appellants conceded that personal
jurisdiction and venue were appropriate in the D.C. District Court and only moved to
dismiss for failure to state a claim under Fed. R. Civ. Proc. 12(b)(6), the Government
waived that requirement. Id.
When the Court reaches the merits after full briefing, it is much more likely
that it will affirm the district court in its correct application of clearly established
precedent. The Government cannot satisfy its “heavy burden” to justify a stay of
execution.

- 29 -

B.

The District Court Properly Found That Mr. Purkey Met
Panetti’s Threshold Showing of Incompetence

The district court correctly found that Mr. Purkey “made a substantial showing
of incompetence” and was thus “entitled to an opportunity to be heard, including a
fair hearing.” Order at 10–11, ECF No. 36 (citing Ford, 477 U.S. at 425–26 (Powell,
J., concurring)). In making this determination, the district court credited the
extensive evidence submitted by Mr. Purkey in support of his incompetence and
concluded 1) that Mr. Purkey “does not understand that his execution is punishment
for his capital crime”; 2) that “he has a documented history of mental illness,
including delusional and paranoid thinking, starting in childhood and continuing to
the present”; 3) that “his dementia has caused a decline in his mental health”; and 4)
that “his long-term inability to communicate with counsel evinces his incompetence.”
Order at 10, ECF No. 36. The Court also credited the report by Dr. Bhushan Agharkar
concluding that Mr. Purkey lacks a rational understanding of the basis for his
execution. Id. (citing Agharkar Report, at 11–12, Complaint, Ex. 1, ECF No. 1-1.)
Further, the Court observed that, while Appellants disputed Mr. Purkey’s claim of
incompetence, they provided no independent evidence of competence. Order at 10,
ECF No. 36. Having met the substantial threshold showing, the district court
correctly found that Mr. Purkey “has demonstrated a likelihood of success on his
claim for a competency hearing.” Id. at 11.
Appellants advance the same arguments here that were unavailing in
the court below, and these arguments must again fail. See Mot. to Dismiss at
21–25, 29, ECF No. 18. As the district court recognized, Mr. Purkey has
- 30 -

submitted substantial and reliable evidence of his progressive dementia,
schizophrenia, delusions, and paranoia, including through numerous
declarations and reports from counsel, defense team members, and multiple
medical experts, as well as through medical testing results, medical records,
and other relevant documents. Compl., ECF Nos. 1 to 1-52; Pl.’s Renewed Mot.
for Prelim. Inj. & Supporting Documents, ECF Nos. 23 to 23-7. Appellants
attack Dr. Agharkar’s expert conclusions based solely on their layperson,
uninformed understanding of mental health. Appellants argue that Mr.
Purkey’s lack of rational understanding for his execution is really a lack of
understanding of the reason for scheduling his execution, but as the district
court observed, this is not “independent evidence of competence.” Order at 10,
ECF No. 36. Further, any factual disputes raised by Appellants, even if they
were valid—which they are not—support the district court’s finding that a
hearing is warranted.
Ford and Panetti make clear that once a prisoner has made a
“substantial threshold showing of insanity” he is entitled to “the protection
afforded by procedural due process,” including a hearing at which to present
evidence on the ultimate issue of competency. See Panetti, 551 U.S. at 949.
Panetti explains the substance of these procedures, emanating from Justice
Powell’s controlling opinion in Ford setting out the minimum procedures for
competency determinations:
[I]f the Constitution renders the fact or timing of [the condemned
prisoner’s] execution contingent upon establishment of a further fact,
- 31 -

then that fact must be determined with the high regard for truth that
befits a decision affecting the life or death of a human being. Thus, the
ascertainment of a prisoner’s sanity as a predicate to lawful execution
calls for no less stringent standards than those demanded in any other
aspect of a capital proceeding.
Panetti, 551 U.S. at 948–49 (quoting Ford, 477 U.S. at 411–12). A “fair hearing” is
necessary under Panetti and Ford because there are facts that must be established
at the time of, or shortly before, an execution date to determine if sanity is an issue.
Panetti, 551 U.S. at 948–49 (quoting Ford, 477 U.S. at 426). The fact of the condemned
person’s sanity is the necessary predicate for the retributive justification of death as
a punishment. Id. Without this, the punishment becomes indefensible. This critical
constitutional inquiry must be subject to the adversarial process and judicial
scrutiny.
Notably, Mr. Purkey made this substantial threshold showing despite
Appellants’ significant interference with his attempts to gather critical evidence. The
Government’s refusal to honor Mr. Purkey’s repeated requests over the past nine
months for medical and mental health records, surveillance video from his cell, and
access to medical testing, as well as the interference with access to visitations because
of the COVID-19 pandemic, has deprived him of expert and legal assistance and the
opportunity to review and submit additional relevant evidence of his incompetency.
With no authority, Appellants argue that a failure to meet the threshold
showing entitles a prisoner to “no process –including information sharing.” ECF No.
39 at 16. Neither Panetti nor Ford stands for the proposition that the government
may obstruct a prisoner’s access to his own counsel and medical records and then
complain that the prisoner has failed to demonstrate current incompetency. Panetti
- 32 -

and Ford are premised on the opposite assumption: that counsel will have access to
their client in making a substantial threshold showing. In Ford, counsel relied on,
inter alia, the inmate’s medical records that showed a pattern of deterioration into a
paranoid psychosis. Ford, 477 at 402. In Panetti, counsel and a psychiatrist were able
to meet with Panetti on the eve of his execution to corroborate the apparent illness
as described by prison staff. Panetti, 551 U.S. at 940-42. In neither case did the state
seek a litigation advantage by depriving counsel of information about their client.
That is what Appellants attempted to do here. Mr. Purkey’s counsel requested
his medical records for months, complying with every procedural mechanism and rule
Appellants put forth. To date, Appellants have failed to produce any of Mr. Purkey’s
updated records despite repeated requests, nor have his experts been able to conduct
necessary in-person examinations. The brain scans that Mr. Purkey requested for
months took place only last week, and Appellants’ representation that they sent
“counsel the reports and original imaging from Purkey’s most recent medical scans”
is misleading at best. ECF No. 39 at 5. In fact, despite being informed by BOP that
the requested scans and imaging were conducted on or after July 8, 2020 and that
one of Mr. Purkey’s experts would receive those scans and imaging from BOP by July
11, 2020, the expert did not receive them until July 14, 2020, i.e., the day before the
Mr. Purkey’s scheduled execution. He has yet to receive the EEG results.
Critically, five minutes before this filing, Mr. Purkey’s counsel learned that the
Government appears to have had scientific confirmation in their possession of
significant structural abnormalities in Mr. Purkey’s brain that are consistent with

- 33 -

cognitive impairment such as vascular dementia or other conditions. Access to this
testing had been requested by Plaintiff for months, and arbitrarily denied by
Appellants. Appellants reversed course last week, and permitted the testing at the
expense of the Mr. Purkey’s team. Even though the testing was paid for and requested
by Plaintiff’s counsel and their experts, the results were initially delivered only to the
Government, last week. The Government provided reports based on this data late
last week, but did not deliver the underlying scans to Mr. Purkey’s expert until
yesterday. Although Plaintiff’s expert has not been able to verify the extent of the
atrophy and damage to Plaintiff's brain through the actual scans, the reports
themselves make clear that significant abnormalities exists.

II.

APPELLANTS WILL NOT BE IRREPARABLY HARMED BY THE
PRELIMINARY INJUNCTION
Appellants have not shown that they would be harmed—much less irreparably

so—absent a stay. Appellants complain that their “significant advanced planning and
coordination” will be frustrated. Defs.’ Mot. to Stay Prelim. Inj. Pending Appeal at 6,
ECF No. 39. But Appellants created this situation when they filed a truncated
execution warrant while Mr. Purkey diligently sought to litigate his claim. Any
scheduling inconveniences for Appellants are of their own making and fail to rise to
the level of irreparable harm.3

3 Counsel object to Appellants’ proposition that they can execute him “later today or
possibly tomorrow.” According to the regulation, Mr. Purkey’s warrant has been
issued for a specific “date”—i.e., today. Appellants’ suggestion appears to
contravene the regulation. ECF No. 39 at 19.
- 34 -

III.

PLAINTIFF WILL BE IRREPARABLY HARMED BY A STAY OF THE
INJUNCTION
Plaintiff, by contrast, would suffer irreparable harm of the highest order if the

preliminary injunction is stayed. As the district court observed, “[i]n Ford, Justice
Marshall acknowledged that ‘execution is the most irremediable and unfathomable
of penalties.’ 477 U.S. at 411 (citing Woodson v. North Carolina, 428 U.S. 280, 305
(1976) (plurality opinion).” Order at 11, ECF No. 36. As the district court correctly
found, “absent a preliminary injunction, Plaintiff would be executed without being
given the opportunity to be heard regarding his competence to suffer such a sentence”
having “made a substantial threshold showing of innocence.” Id. at 11–12.
Importantly, the district court noted that Appellants “do not dispute that irreparable
harm is likely.” Id. at 12.

IV.

A STAY IS NOT IN THE PUBLIC INTEREST
The balance of the equities and public interest also favor a stay. Where the

Government opposes a stay, these two factors merge. See Nken, 556 U.S. at 434–35.
This Court has an interest in granting a stay in order “to protect the Court’s
jurisdiction over the case, for if the inmate was executed while the competency
question was pending, the case would become moot even if it later appeared that the
inmate clearly was incompetent.” Smith ex rel. Smith v. Armontrout, 626 F. Supp.
936, 939 n.1 (W.D. Mo. 1986). A cognizable Ford claim presents important
constitutional questions courts must approach with “deliberate and thoughtful”
consideration, for “a ripe Ford claim is due the same consideration as other issues
raised in a first habeas petition.” Amaya-Ruiz v. Stewart, 136 F. Supp. 2d 1014, 1030–
- 35 -

31 (D. Ariz. 2001) (granting stay of execution pending resolution of Ford claim). A
stay in this matter to ensure an incompetent person is not executed in violation of the
U.S. Constitution:
will not substantially harm the government, which has waited at least
seven years to move forward on Purkey’s case. . . . the public interest is
surely served by treating this case with the same time for consideration
and deliberation that we would give any case. Just because the death
penalty is involved is no reason to take short-cuts—indeed, it is a reason
not to do so.
Notice of Recent Decision, Ex. A at 26–27, ECF No. 31-1.
Other courts have found “little potential for injury” as a result of a delayed
execution date. See, e.g., Harris v. Johnson, 323 F. Supp. 2d 797, 809 (S.D. Tex. 2004).
Any potential harm to the Government caused by a delayed execution is outweighed
by the obvious harm to Mr. Purkey and the public’s interest in a constitutional
application executions. Not delaying the execution undermines the rule of law as
pronounced by Ford and Panetti—that we as a society do not execute the incompetent.
Further, the only delays in this matter have been caused by Appellants. Since
August 2019, despite repeated requests and efforts by Mr. Purkey’s counsel,
Appellants have continuously refused to provide his medical, mental health, and
administrative records or, to furnish (or possibly even preserve) video evidence
depicting Mr. Purkey’s dementia, all of which is integral to Mr. Purkey’s claim. See
generally e.g., R. Woodman Decl., ECF No. 23-6; Pl.’s Mot. For Expedited Disc., ECF
No. 24; Reply in Supp. of Pl.’s Mot. For Expedited Disc. & App. A, ECF Nos. 30, 30-1.
Additionally, due to the COVID-19 pandemic, BOP has precluded all visitors into
USP Terre Haute beginning March 13, 2020, and now is only allowing visitors for
- 36 -

prisoners with execution dates. See E. Vartkessian Suppl. Decl. at 2, ECF No. 23-5.
USP Terre Haute has documented cases of COVID-19 and at least one COVID-related
death. Any alleged concern about the victims rings hollow given Appellants’ choice to
recklessly execute Mr. Purkey during a global pandemic with minimal safety
procedures in place, putting the victim’s family in a position to choose between
attending the execution (as is their right) and risking their health and safety (and
possibly their lives). BOP still has released only cursory guidance on keeping visitors
safe and have refused to provide meaningful information related testing, ventilation,
and other necessary procedures to keep visitors safe. R. Woodman Decl. ¶¶ 33–38,
ECF No. 23-6.
By contrast, Mr. Purkey has acted diligently and expediently to protect his
constitutional rights. This case falls into a category of cases where filing is not ripe
until execution is imminent. See Panetti, 551 U.S. at 947 (citing Stewart v. MartinezVillareal, 523 U.S. 637, 644–45 (1998) (a competency to be executed claim is not ripe
until it is time to execute the sentence)). Mr. Purkey’s status has declined over the
years, including in the months and weeks leading up to his initial execution date, and
has declined even more since. E. Vartkessian Suppl. Decl. ¶¶ 5–21, ECF No. 23-5; R.
Woodman Decl. ¶¶ 14–23, ECF No. 23-6. It is due to this decline, Mr. Purkey’s current
mental incompetency, and the imposition of the sentence, that the case is properly
before the district court.
Even where Appellants have a “strong interest in enforcing its criminal
judgments,” that interest is outweighed by the public’s interest in a “humane and

- 37 -

constitutional” application of the federal execution protocol. Nooner v. Norris, No.
5:06CV00110 SWW, 2006 WL 8445125, at *4 (E.D. Ark. June 26, 2006). Mr. Purkey
does not contest his conviction or the sentence of death. He contests only the
unconstitutional way in which the Government proposes to execute him in his
current condition of incompetency. In any event, “the fact that the government has
not—until now—sought to” schedule Mr. Purkey’s execution “undermines any
urgency surrounding” its need to carry out Mr. Purkey’s sentence. Osorio-Martinez
v. Attorney Gen. of the U.S., 893 F.3d 153, 179 (3d Cir. 2018). The preliminary
injunction will therefore “not substantially injure other interested parties,” the
public, or the Government. Chaplaincy, 454 F.3d at 297.
And, the COVID-19 pandemic inescapably impacts what can be considered a
humane and constitutional execution. Based on Mr. Purkey’s deteriorating
condition, it is very likely that Mr. Purkey’s competency has only continued to
decline. But Mr. Purkey’s counsel has been unable to assess this without access to
in-person visits with her client. R. Woodman Decl. ¶¶ 33–38, ECF No. 23-6; E.
Vartkessian Suppl. Decl. ¶¶ 22–25, ECF No. 23-5. Further, the lack of access to one
of the only forms of contact with the outside world has itself likely exacerbated his
serious mental illness and deteriorating mental capacity. E. Vartkessian Suppl.
Decl. ¶ 25, ECF No. 23-5. Even if BOP begins to permit visits, Mr. Purkey’s legal
counsel, expert witnesses, and others will need to risk their lives to save Mr.

- 38 -

Purkey’s. It is not in the public interest to subject citizens to undue and unnecessary
health hazards.4
Finally, it is clearly not in the public interest to execute an incompetent
person. The public interest is not served by executing an individual presenting a
prima facie case of incompetency before he has the opportunity to avail himself of the
legitimate procedures to challenge his competence, as required by clearly existing
United States Supreme Court authority. Accordingly, the public interest is only
served by preliminarily enjoining Mr. Purkey’s execution because it will allow for the
equal application of the law in judicial processes.
The public interest lies in ensuring that Appellants comply with the
Constitution and the laws Congress enacted.

4 Appellate

state courts have stayed several executions in light of the COVID-19
pandemic. See ECF No. 23 at 36 n.6.

- 39 -

July 2020

Respectfully submitted,

Timothy P. O’Toole
Counsel of Record
Miller & Chevalier Chartered
900 Sixteenth St. NW
Washington, DC 20006
(202) 626-5800\
totoole@milchev.com

- 40 -

